 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




    UNITED STATES PATENT AND
           TRADEMARK OFFICE

       OIG Review of Complaints and
Concerns Related to PTO’s Handling of
                   Patent Applications
           09/253,506 and 09/940,607
              Final Inspection Report No. IPE-16083/September 2003

                              PUBLIC
                              RELEASE

                 Office of Inspections and Program Evaluations
                                                                                   -    ___00- -.
                            - __00--- 00-




                                                ",~f..rr       OF Co,,,
                                            ,,~            ~              ~
                                            ~              x              ~            UNITED STATES DEPARTMENT OF COMMERCE
                                            G
                                            ~
                                                ~<> ~
                                                   ~"TES eft ~
                                                                  -
                                                                   .'
                                                                          $
                                                                              i1       Office of Inspector General
                                                                                       Washington.D.C.20230


   SEP 3 0 2003

MEMORANDUM          FOR:       Nicholas P. Godici
                               Commissioner for Patents
                               United States Patent and Trademark Office


FROM:                          Jill Gross    ~~~           ~
                               Assistanffuspector General for Inspections and
                               Program Evaluations


SUBJECT:                       OIG Review of Complaints and Concerns Related to PTO's
                               Handling of Patent Applications 09/253,506 and
                               09/940,607 (IPE-16083)

As a follow-up to our August 29, 2003, draft report, attached is the final report on our
inspection of complaints and concerns related to PTO's handling of patent applications
09/253,506 and 09/940,607. A copy of your response to our draft report is included in its
entirety as an appendix of the report.

We appreciate the Patent and Trademark Office's concurrence with all four of our
recommendations and the steps taken thus far to implement the recommendations. We
believe that with one exception, the actions meet the intent of our recommendations and
we consider them closed. However, we believe that your answers to recommendation 4
require some additional action. Specifically, while the Image File Wrapper system will
allow multiple employees to concurrently view applications, we reaffirm our
recommendation that PTO establish clear timeliness goals for the patent corps' handling
of, and responses to, applicant petitions. Please provide an action plan addressing this
unresolved recommendation within 60 calendar days.

As stated in our draft report, the finance counsel for the House Small Business
Committee requested that our office investigate these issues. We plan to brief the finance
counsel as soon as possible.

We thank the personnel in your office and patent corps personnel for the assistance and
courtesies extended to us during our review. If you have any questions or comments
about our report, please feel free to contact me on (202) 482-2754.

Attachment
u.s. Department of Commerce                                                                                                Final Report IPE-16083

Office of Insoector General                                                                                                        Sell.tember 2003



                                                TABLE OF CONTENTS


EXECUTIVE	     SUMMARY                              ,."..,."...,                                ,.,..".,               ,         ,         ,..,       ,          i


INTRODUCTION                                                  ,..,             ,.,...,         ,,          ,	                                     ,              1



OBJECTIVES, SCOPE, AND METHODOLOGY	                                                                                                                       ,      1



BACKGROUND                ,...,          "...        ,             ,	                                           ,     ,..,      ,.."...,                         1



FINDINGS     AND CONCLUSIONS,                                      ,      ,          ".."..,                                 "..,	                               4




I.	     Issue 1: For Application 09/253,506, PTO Technology Center Director Gave

                a False Date for the Complainant's Initial Status Inquiry So As to

                Appear to Have Responded Within the Required 30 Days and Thereby

                Receive a Higher Performance Rating and Bonus.                                                                                                   4


II.	    Issue 2: For Application 09/253,506, PTO Personnel Deleted and Altered
                PALM Entries for Personal Gain, .                                                                                                                ,8

III.	   Issue 3: For Application 09/253,506, PTO Personnel Failed to Enter and

                Process the Complainant's Petitions and Amendments Within

                Appropriate Timeuames      ,..                  ...,    .,..                                                                                  ...10


IV.	    Issue 4: For Application 09/253,506, PTO's Office of Petitions Wrongfully

                Dismissed the Complainant's Petition                                                                                                            13


V.      Issue 5: PTO Technology Center Director and Other Personnel Had
                Inappropriate Access to PALM and Were Able to Manipulate Dates for
               Personal           Gain          ,..,.."..",             ,..,                        "..,..."...".."                 ,        ,                ,,15

VI.     Issue 6: PTO Temporarily Lost Applications 09/253,506 and 09/940,607                                                                                    16



APPENDIX: Agency Response...,., ,.. .,                                    ... ,..                      ,            .. . ... ...	                             ..18

   - - - --




      u.s. Department of Commerce                                                   Final Report IPE-16083
      Office of Insoector General                                                           See/ember 2003


                                          EXECUTIVE SUMMARY

     On March 31, 2003, the Office of Inspector General received a letter from an individual
     requesting that we investigate charges that United States Patent and Trademark Office
     personnel had not properly processed patent applications 09/253,506 and 09/940,607, and
     had manipulated PTO's Patent Application Location and Monitoring (PALM) system for
     personal gain. We reviewed the complainant's concerns and condensed them into six
     main issues. In addition, our office was asked by the finance counsel for the House Small
     Business Committee to investigate this complainant's issues. In short, we determined
     that two of the six issues raised by the complainant were supportable (see table 1, below).



                                                                                                 OIG Fin~ilit!s
    1.        For application 09/253,506, PTO technology center director gave a false
              date for the complainant's initial status inquiry so as to appear to have         Not supportable
              responded within the required 30 days and thereby receive a higher                  (See page 4)
              performance rating and bonus.
    2.        For application 09/253,506, PTO personnel deleted and altered PALM
              entries for personal gain.
    3.        For application 09/253,506, PTO personnel failed to enter and process
                                                                                                  Supportable
              the complainant's petitions and amendments within appropriate
              timeframes.                                                                         (See pagelO)
    4.        For application 09/253,506, PTO's Office of Petitions wrongfully
              dismissed the complainant's petition.
    5.        PTO technology center director and other personnel had inappropriate
              access to PALM and were able to manipulate dates for personal gain.
    6.        PTO temporarily lost applications 09/253,506 and 09/940,607.

Source: Complainant and OIG analysIs

      While we found that PTO did not process the two applications within appropriate
      timeframes, we found no evidence to indicate that PTO personnel had manipulated the
      PALM system for personal gain. We concluded that PTO did fail to meet appropriate
      timeframes for processing three of the complainant's petitionsl and two amendments2 and
      did lose the two applications for one and two months, respectively.

      As a result of our review, we make four recommendations to PTO's Under Secretary of
      Commerce for Intellectual Property and Director ofthe United States Patent and
      Trademark Office: (1) clarify the definition of "promptly" for patent corps responses to
      applicant status inquiries; (2) inform applicants ifPTO responds to more than one status
      inquiry in the same letter; (3) clearly inform applicants when to submit status inquiries


      1An applicant may submit a petition to the office with delegated authority to review petitions including the
      Office of Petitions, technology center directors, and/or the commissioner for patents.
      2 An applicant may submit an amendmentto     change, add, or delete informationin the patent application.
                                                      .--   ___n-_n   --- ------




u.s. Department of Commerce                                           Final Report IPE-16083
Office of Inspector General                                                   September 2003


pertaining to their applications; and (4) establish clear timeliness goals for the Patent
Corps' handling of, and responses to, applicant's petitions.

                                      ~~~

In response to our draft report, PTO concurred with all four of our recommendations.
However, while we agree that its responses to recommendations one through three meet
the intent of our recommendations, we believe its response to recommendation four does
not meet the intent of our recommendation and requires additional action by PTO. See
pages 6 and 12 for our specific comments.




                                               ii
                                                                      - -- - - - - -   - - - --

    _unnn­




     u.s. Department of Commerce                                      Final Report IPE-16083
     Office of Inspector General                                              September 2003


                                       INTRODUCTION


    On March 31, 2003, the Office of Inspector General received a letter from an individual
    accusing PTO personnel of purposely mishandling his patent applications 09/253,506 and
    09/940,607. The applications sought patents for a nanostructure device and apparatus,
    which uses a carbon nanotube transistor to help make smaller and faster powered
    computer chips. We reviewed the complainant's concerns and condensed them into six
    main issues. We conducted a review of those issues from March 31,2003, to May 13,
    2003. At the conclusion of our work, we discussed our findings with the deputy
    commissioner for patent operations, deputy commissioner for patent resources and
    planning, executive assistant to the commissioner for patents, and the House Small
    Business Committee's finance counsel.

                       OBJECTIVES,      SCOPE, AND METHODOLOGY

    We sought to determine the validity of the issues we identified regarding applications
    09/253,506 and 09/940,607. To accomplish this objective, we (1) met with the
    complainant to obtain more specific information, (2) met with the executive assistant to
    the commissioner for patents and other PTO staff to evaluate the contents of application
    09/253,506, (3) verified the location of applications 09/253,506 and 09/940,607, and (4)
    conducted a detailed historical review of application 09/253,506.

     We did not attempt to determine the patentability of the two inventions and the adequacy
     of the Patent Application Location and Monitoring system, nor did we review the validity
     of the PALM system data or security controls. We performed our review in accordance
     with the Quality Standardsfor Inspections issued by the President's Council on Integrity
     and Efficiency, and under the authority of the Inspector General Act of 1978, as
I    amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.

                                        BACKGROUND

    For the complainant's two applications in question, PTO personnel had to review various
    amendments, petitions, and status inquiries. Chart I documents the patent examination
    process for amendments and petitions. Applicants can also submit status inquiries to
    obtain information from the patent office about the status of their patent; those inquiries
    are not an inherent function of examining a patent application.
                                                                                                                                    u-_uu




  u.s. Department of Commerce                                                                                Final Report IPE-16083
  Office of Insoector General                                                                                        Seotember 2003


 Chart 1. The Patent Examination                                     Process

        Pre-Search
        .    Read specifications and
             claim limitations                                            Amendments Review
                                                                                   Reviewrevised and/or
                                                                                   new claims submitted
                                                                                   by attorney
                                                                                   Write second action or
                                                                                                                                                      i
        .                                                                          final rejection or
                                                                                   allowance
                                                                                                                    Post Examination
                                                                                                                    .
                                                                                                                                                      I
                                                                                                                                                      .
                                                                                                                         Submit completed case
                                                                                                                         to the supervisory patent

                                                                          Petitions                                 .    examiner for review
                                                                                                                         Submit case to docket
                                                                                                                         clerk to review for
                                                                               Request by applicant to
                                                                               review previous                           signatures and completed
        Examination                                                                                                      actions
        .    Compare claim limitations
                                                                               decision by other PTO
                                                                               personnel                                 Final count issued by

        .    to prior art
             Write First Office Action
             on the Merits
                                                                                                                         docket clerk
                                                                                                                         Patent printed and issued



  Source: Office of Inspector General

  An applicant may submit an amendment to change, add, or delete information on the
  application. An applicant may submit a petition to the Office of Petitions, technology
  center directors, and/or the commissioner for patents, to review a previous decision made
  by someone other than the person or office reviewing the petition. For example, an
  applicant may petition the commissioner for patents to review an examiner's decision.
  Table
  .    .. 2 documents PTO's requirements for processing amendments, petitions, and status
  mqUIrIes.

Table 2. PTO Time Requirements                                     for Entering and Processing Amendments, Petitions,
         and Status Inquiries
                  '000",ii ,., ,. ...". ."'"W''';'''        ,.""     ;.,i""''j('      ''', '."   "',.
                                                                                                             Petitions';;.                  ".
                                                                                         'ii;g,tJpO.j} --                        Satus
 '""Action'" "lPOmiers'onIi'el                                     ii1fidMiltS"                               Ofltceiof
                                                                                                                                                  .




            "                                .Ii       ,"                                  Paten,t ,Gorp'S    .PetitioD's      XI\OO!ries
                                                                                                                                     """i""""",
                                                             ..




               Technical Support                                                                                Not
   Enter                                                            30 days                Not Specified                       Promptly
                     Staff                                                                                    Specified
                                                                                                                Not
  Analyze              Examiner                                     60 days                Not Specified                       Promptly
                                                                                                              Specified
                Legal Instrument                                                                                Not
    Mail        Examiners and!or                                    30 days                Not Specified                       Promptly
                   Examiners                                                                                  Specified
    Total                                                           120 days               Not Specified       85 days         No Total

Source: Office ofInspector General

                                                                                     2
                                                                    -   - n   - ----­
    -- -- - - .




    u.s. Department of Commerce                                         Final Report IPE-16083
    Office of Insoector General                                                 See/ember 2003


    As shown above, PTO employees have specific time requirements for entering and
    responding to amendments. The Office of Petitions has a total of 85 days to enter and
    respond to petitions, while the patent corps has no formal time requirement for entering
    and responding to petitions.

    The Manual of Patent Examining Procedure (MPEP) recommends that PTO personnel
    respond promptly to all status inquiries, through a telephone call or written response,
    indicating the "expected" date of action by PTO. PTO management stated that an
    additional correct response to a status inquiry is the issuing of an examiner's answer, also
I   known as an office action. However, MPEP has no time requirement for "promptly,"_and
    therefore lacks clear guidelines and specific timeframes for responding to applicant status
    inquiries. Finally, legal instrument examiners and their supervisors process applications
    and examiner answers.




                                                 3

u.s. Department of Commerce                                       Final Report IPE-16083
Office of Inspector General                                               Sel!..tember2003


TC Director allegedly gave a false date: The technology center director did not give a
false date in his response to the complainant's August 27 status inquiry. Based on our
review, it appears that the technology center director responded to the complainant's
August 27 status inquiry instead of the complainant's May 25 status inquiry for two
reasons. First, we believe the technology center director addressed the August 27 inquiry
because it referred to the same issues as the previous two inquiries, and the September 18
inquiry was most likely received by PTO after the September 19 response was drafted.

Second, we confirmed PTO received the complainant's status inquiry on May 25.
However, the technical support staff could not respond to the May 25 status inquiry
because the technology center director had the file until August 28. Specifically, he was
responding to a petition decision made by the Office of Petitions. As a result, the
technical support staff could not enter any documents, including status inquiries, into the
file, causing delay on all subsequent actions.

As shown in table 3, the complainant had submitted the amendment on February 23,
2001, and then filed his initial status inquiry for his February 23 amendment on May 25,
after determining that PTO personnel had not entered his amendment into PALM. While
the amendment was not entered until sometime between August 28, 2001 and September
14, 2001, the complainant believed that PTO must respond to status inquiries in 30 days,
or approximately by June 25. The complainant did not receive any response from PTO,
and as a result, filed additional inquiries to numerous PTO personnel on August 22,
August 27, and September 18. As table 3 above indicates, the complainant filed at least
four letters raising similar concerns pertaining to his February 23,2001 amendment.

MPEP 203.08 states that applicants should not submit status inquiries until 5 or 6 months
have elapsed with no response from the office. Specifically, MPEP states, "a status
inquiry is not in order after reply by the attorney until 5 or 6 months have elapsed with no
response from the Office." The complainant's first status inquiry was filed on May 25,
only 3 months after the amendment was submitted. PTO management stated that while
the complainant's May 25 status inquiry was earlier than recommended by MPEP, had it
been put into PALM, PTO personnel would have responded promptly to the status
inquiry. PTO needs to clearly inform applicants when to submit status inquiries
pertaining to their applications.

While the technology center director responded promptly to the complainant's August 27
status inquiry, his September 19 response only referenced the complainant's August 27
status inquiry and not the May 25 and August 22 status inquiries. Because all four status
inquiries addressed the same issues, the technology center director's September 19 letter
should have referenced all outstanding status inquiries filed prior to September 19,2001.

TC director would have been eligible for a higher rating and bonus if he had
responded in 30 days: The technology center director would not have received a higher
rating and bonus by responding to the complainant's August 27 status inquiry, because
responding to status inquiries is not one of his workflow management measures. The


                                              5

                                                  --- __n   -------




u.s. Department of Commerce                                           Final Report IPE-16083
Office of Inspector General                                                   September 2003


ratings
.    .. and bonuses of technology center directors are not affected by responses to status
mqUIrIes.

While workflow management is critical throughout PTO, it is the technical support staff
and examiners who usually provide responses to complainant's status inquiries.
However, in this instance, the technology center director responded to the complainant's
status inquiry without the involvement of the technical support staff and the examiner.

The complainant appears to believe responses to status inquiries must meet a 3D-day
requirement. However, as noted previously, the MPEP only requires a "prompt"
response to status inquiries.

Recommendations: Although the complainant's specific complaints and concerns are
not supported, we believe that to improve its handling of patent applications and better
clarify its processes, PTO should (1) clarify the defmition of "promptly" for patent corps
responses to applicant status inquiries, (2) inform applicants if it responds to more than
one status inquiry in the same letter in order to address all unresolved issues, and (3)
clearly inform applicants when to submit status inquiries pertaining to their applications.

                                      ~..~~
In response to our draft report, PTO concurred with all three of our recommendations.
More importantly, PTO's responses to our recommendations meet the intent of our
recommendations. For recommendation one, PTO stated it has recently implemented a
new automated system by which responses are provided to status letter inquiries.
According to PTO, when such inquiries are received in a technology center, a Customer
Service Center representative enters the application serial number into an automated
system and provides an approximate date of action to the applicant. Specifically, the
Customer Service Center representative either calls the applicant with the status
information or prints a letter containing the status information and mails it to the
applicant for their records. With this "automated system," PTO maintains that "a
response can be provided simply and quickly after the initial inquiry by the applicant."
Therefore, PTO does not believe it is necessary to clarify the definition of promptly for
patent corps responses to applicant status inquiries. We agree. As a result, PTO's action
meets the intent of our recommendation.

For recommendation two, PTO's new automated system will provide separate responses
to each applicant inquiry. Therefore, we believe that PTO's action meets the intent of our
recommendation.

For recommendation three, PTO provided information that indicates that applicants are
clearly informed when to submit status inquiries pertaining to their applications.
Specifically, PTO stated that the Official Gazette and the Manual of Patent Examining
Procedure provide applicants with information on what applications have received first
office actions on the merits and when applicants should file status inquiries, respectively.


                                              6
u.s. Department of Commerce                                       Final Report IPE-16083
Office of InSDectorGeneral                                                SeDtember 2003


The Official Gazette includes the average filing date of applications receiving a first
office action in each technology center and the telephone numbers of the customer
service centers if an applicant has any questions regarding his or her application. PTO
stated that applicants should call their applicable customer service center with an inquiry
if their application is older than the published dates in the Official Gazette. We believe
such wording adequately informs applicants about when and where they should inquire if
they have a problem with their applications. As a result, we believe such wording meets
the intent of our recommendation.

In addition, PTO stated that the Manual of Patent Examining Procedure provides clear
guidance on when applicants should submit status inquiries. Specifically, the MPEP
wording states that applicants can submit a status inquiry after 5 or 6 months, if they have
not heard from the office. PTO stated that the wording was intentional so that applicants
had the option of filing status inquiries, and not that they had to submit status inquiries
after 5 or 6 months. As a result, with such wording and the information in the Official
Gazette on where and when to submit inquiries, we believe that such measures meet the
intent of our recommendation.




                                              7

                                                            - - - n_- - - -




u.s. Department of Commerce                                                     Final Report IPE-16083
Office of Insvector General                                                             Sevtember 2003


II. Issue 2: For application 09/253,506, PTO personnel deleted and altered PALM
              entries for personal gain

OIG finding: Not supportable. We found a supervisory patent examiner troubleshooter,
one of the 191 PALM troubleshooters, and not the technology center director, properly
deleted the six entries in question. (See page 15.) We found no evidence to support the
charge that PTO personnel altered PALM entries for personal gain.

Discussion: The complainant alleged that (1) a technology center director deleted six
entries in PALM to ensure that his examiners met required timeframes for responding to
an amendment to application 09/253,506, and (2) PTO personnel entered a false
completion date for an examiner's non-final rejection4 on the application, to ensure that
the examiner received credit before the end of fiscal year 2001. The complainant further
alleged that when the work was actually completed-November       1, 2001-personnel
changed the late September date to the November 1 date.

Alleged entry deletions: The complainant alleged that the technology center director
deleted the six entries because the technology center director (1) was upset that his
decision to deny the complainant's petition to withdraw an examiner's restriction
requirementS would be reviewed by the Office of Petitions, (2) had not approved the
complainant's February 23, 2001, amendment into PALM, and (3) needed to hide the fact
that PTO had not met the 120-day deadline for responding to amendments. As stated
above, a PALM troubleshooter, not the technology center director, deleted the six entries.

We found that PALM contained no documentation explaining the deletions. However,
after reviewing the entire paper file for application 09/253,506 and talking to various
PTO personnel, it appears that a technical support staff troubleshooter made the deletions
in order to eliminate duplicate entries and avoid an unnecessary duplicate petition
response. Because only duplications were deleted, those deletions would not have
enabled PTO to hide the fact that it failed to meet the 120-day amendment response
requirement. The reasons for the duplications are as follows.

Based on discussions with PTO personnel, on August 22, 2001, technical support
personnel mistakenly entered duplicates of two supplemental petitions from the
complainant. PTO personnel were apparently confused when the complainant sent
multiple copies of each petition to different PTO offices. The two duplicates were
subsequently deleted.




4 A non-final rejection is an examiner's intermediate answer that does not close prosecution of an
application.
s 37 CFR 1.142 states, "If two or more independent and distinct inventions are claimed in a single application,
the examiner may require the applicant to elect (designate) a single invention to which the claims will be
restricted (limited to)."


                                                       8
                 -   --   ---~---   ------------------­       - --   ~- ~




u.s. Department of Commerce                                                 Final Report IPE-16083
Office of Insoector General                                                         See/ember 2003


In another instance, PTO answered two of the complainant's December 18,2000,
petitions in one response (see table 4).6 Accordingly, the troubleshooter deleted one of
two petition entries because it did not require a separate action. Finally, only three
deletions were made, but PALM records each deletion as two transactions-one being
the actual record that is eliminated and the other being the act of eliminating it.
Therefore, the elimination of two duplicate petitions and the separate December 18
petition was tabulated as six individual deletions.

Alleged input of false information. The complainant alleged that PTO personnel had
purposely entered a completion date for incomplete work by an examiner, between
September 24-26,2001, for patent application 09/253,506, so that the examiner assigned
to the application would meet his fiscal year production quota. However, the
complainant contended the work was not actually completed until November 1, 2001, and
PTO personnel then changed the September 2001 date to November 2001, to reflect the
actual completion of the examiner's work.

After reviewing examiner production records and PALM reports, we found no evidence
that PTO personnel had (1) entered a false September 2001 work completion date, or (2)
changed completion dates from a late September date to November 1. We determined
that the examiner in question received credit for the completed work on November 1,
2001.




6 Granting the review of a previous decision on March 6, 2001, and then a decision after review on August
28,2001.


                                                          9
                        --   --,   '    ",u'




    u.s. Department of Commerce                                                                                             J7inal Report IPE-16083
    Office of InsDector General                                                                                                      SeDtember 2003


    III.      Issue 3: J70r application 09/253,506, PTO personnelfailed to enter and process
                        the complainant's petitions and amendments within appropriate
                        timeframes

    DIG findin2: Supportable. We found that PTO failed to enter and process at least half of
    the complainant's petitions and amendments within appropriate timeframes.

    Discussion: We found that the Office of Petitions failed to enter and process two
    petitions within its 85-day goal. For fiscal year 2001, the Office of Petitions average
    response time was 84 days. The patent corps does not have timeframes for responding to
    petitions. In addition, the patent corps did not meet the 120-day American Inventors
    Protection Act requirement for entering and processing two amendments for application
    09/253,506. Table 4 below shows the chronology of events regarding the complainant's
    Issue.

 Table 4. Chronology of PTO's Handling of Application 09/253,506

                                               )]j'ijiqglIa;(e   '
                                                                                                               P€>        '. ;,!esjl?q;IJ',                  ij...,ij
             w,."                                                                         Response!;'                          ;from PT€>                   ResponSe
       "j                              ","           1?Y
                                                                     ,....W'''T+'.''
                                                                                                             Response
                                                                                                                                   (a;s Qf 0
                                                  Pl!licaIftw        ,," g,....+!,8.W "R<yIi,t.          .    : :U                ",w"'w.w@..",.
                                                                                                                                 SU'S/03)
                                                                                                                                                   w!   !        ,rw    j


  Amendment                  l-e                4/14/2000            No data                120 days         8/14/2000          6/19/2000                   0 months
  Petition     1 tc -                           7/17/2000            No data                 Nonel             None             10/26/2000                  0 months
  Petition     2    -op                        12/18/2000            No data                85 days!         3/13/2001           3/6/2001                   0 months

  Petition     3    -    op                     12/18/2000           No data                 None              None                None2                      None
  Amendment 2-e                                 2/23/2001            No data                120 days         6/23/2001           11/1/2001                  4 months
                                                3/6/20012            No data                 None!             None             8/28/2001                   2 months3
  Petition     4    - tc
                                                8/22/2001            No data                  None             None             8/28/2001                   0 months
                                                                      After
  Petition     S - op                           9/27/2001
                                                                     11/1/01                85 daysl         12/22/2001         7/18/2002                   8 months

  Petition     6 - tc                           12/19/2001           4/21/03                  None             None             4/22/2003                   13 months
                                                                                                                                Examiner
  Amendment 3-e                                  2/1/2002             4/11/03               120 days         6/1/2002                                       15 months
                                                                                                                                reviewing
                                                                                                                                 Office of
  Petition     7    -op                         9/13/2002             9/16/02               85 days!         12/8/2002           Petitions                  9 months
                                                                                                                                revlewmg
  Amendment 3
                                                9/23/2002              N/A4                       N/A           N/A                  N/A                        N/A
  (duplicate 1)
  Amendment 3
                                                9/23/2002               N/A                       N/A           N/A                  N/A                        N/A
  (duplicate 2)
  Amendment 3
                                                11/12/2002              N/A                       N/A           N/A                  N/A                        N/A
  (duplicate 3)
 Person responding: e- examiner; op - Office of Petitions;tc - technologycenter director
 ! The 85-day requirement is for the Office of Petitions and not the patent corps.
 2PTO responded to this petition on 3/6/2001 and 8/28/2001.
 3 Response overdue is based on Office of Petitions requirement since the patent corps has no requirement.
 4PALM EXPO will not record critical papers such as amendments more than once.

Source: PTO PALM data
                                                                                                    10
u.s. Department of Commerce                                                 Final Report IPE-16083
Office of Inspector General                                                         September 2003


PTO management provided two explanations for the delays: (1) the application folder,
which contains all relevant documentation to the patent application, was lost from
January 27,2003, until February 27,2003,7 during which time no work could be done on
the petitions and amendment; and (2) three individuals were processing amendments and
petitions pertaining to the application-the examiner, technology center director, and an
individual from the Office of Petitions-and only one of them could work on the file at a
time, since the paper folder is required to review the entire application history.

Although we were unable to determine the precise reasons for the delays, given the
passage of time, it appears that the fact that three individuals were working on the
applications and needed to coordinate their efforts contributed to the delays in processing
the complainant's petitions and amendments. Since PALM indicated the applicant filed
two petitions and one amendment within five months to several offices, it would seem
obvious that the three individuals needed to coordinate their processing efforts.
However, it would appear that the loss of the application may have contributed to some
ofthe delay (see table 4).

The complainant also charged that PTO did not (1) enter replacement copies of his
September 27,2001 and December 19,2001 petitions and February 1,2002 amendment
into PALM; (2) respond to his 15 status inquiries; (3) consider the complainant's
additional claims from the February 23,2001 amendment in the examiner's November 1,
2001 office action; and (4) consider the technology center director's August 28, 2001
petition decision in the November 1,2001 office action.

When PTO technical support staff failed to enter into PALM the original copies of the
complainant's petitions and amendment, the complainant provided duplicate copies on
June 18, 2002. However, we found that PTO personnel did not enter the original or
replacement copies of the September 27,2001 and December 19,2001 petitions and
February 1,2002 amendment into PALM, until sometime between November 1,2001
and November 6, 2001,8 April 21, 2003, and April 11, 2003, respectively. While PTO
responded to the September 27,2001 and December 19,2001 petitions on July 18,2002
and April 22, 2003, respectively, the complainant is still awaiting responses to his
February 1,2002 amendment and September 13,2002 petition (see table 4).

Second, as for the 15 status inquiries, the complainant alleged that he submitted these
between March 21 and July 12,2002, requesting PTO's decision on his three petitions
and one amendment that still had not been entered into PALM. We found that the
complainant requested decisions on his three petitions and one amendment, 17 times
between March 21,2002 and July 12,2002. PTO responded to the complainant's
requests for decisions on his amendment and petitions by entering the amendment and
responding to two of his petitions. According to PTO, the amendment entry on April 11,

7 See table 6.
8 PALM was converted to PALM EXPO on November 6,2001, and all entries prior to this date are not
recorded. Since an entry prior to the petition entry occurred on November 1,2001, the petition was entered
sometime between this date and the PALM EXPO conversion on November 6, 2001.


                                                    11
U.S. Department of Commerce                                        Final Report IPE-16083
Office of Inspector General                                                September 2003


2003 and the petition decisions of July 18,2002 and April 22, 2003, answered all of the
complainant's status inquiries. In addition, the Office of Petitions is reviewing the third
petition, which was entered into PALM on September 13, 2002 (see table 4).

Third, the complainant alleged the examiner's November 1,2001 response to the
complainant's February 23, 2001 amendment, did not consider the complainant's
additional claims and violated the Administrative Procedure Act of 1946. The act
requires government agencies to consider all evidence when making a decision.
However, after reviewing the examiner's November 1,2001 response, we found the
examiner reviewed the complainant's additional claims. The examiner discounted the
complainant's additional claims because these new claims did not relate to the invention
the complainant selected. Since the examiner had previously made a non-final rejection
of the complainant's claims on September 25, 2000, for this selected invention, the
complainant could only submit additional claims that were related to this invention.

Fourth, on August 28,2001, the technology center director amended the reasons for the
examiner's restriction requirement (see page 14 for details). The complainant alleged the
examiner's November 1,2001 non-final rejection of claims did not consider the
technology center director's new justification for the restriction requirement. As stated in
issue four, the complainant believed the technology center director's amended restriction
requirement should have withdrawn the examiner's original restriction requirement. As a
result, the complainant alleges the examiner's November 1 office action should have
included the new restriction requirement and therefore considered the complainant's
additional claims. However, as MPEP 1002.01 states, after rendering a petition decision,
the application is forwarded to the examiner, who will act in accordance with the
decision. Since the technology center director's petition decision deemed the examiner's
original restriction requirement correct, the examiner appropriately acted upon the
technology center director's petition decision.

Recommendation: We recommend that PTO establish clear timeliness goals for the
Patent Corps' handling of, and responses to, applicant's petitions.

                                       ~..~~
In response to our draft report, PTO concurred with our recommendation. However,
PTO's response to the recommendation does not fully meet the intent of our
recommendation because it did not incorporate a timeliness goal. PTO stated that its
Image File Wrapper system will soon be implemented allowing multiple people to work
on cases. In addition, they also stated that technology center directors "generally"
respond to petitions within one to two months from their receipt of the application.
While we believe this may help reduce the timeframes for the patent corps' handling of,
and responses to, applicants' petitions, we reaffirm our recommendation that PTO
establish "clear" and specific timeliness goals for the patent corps' handling of, and
responses to, applicants' petitions.



                                               12
u.s. Department of Commerce                                                 J7inal Report IPE-16083
Office of InsIJector General                                                         SeIJtember 2003


IV. Issue 4: J70r application 09/253,506, PTO's Office of Petitions wrongfully
             dismissed the complainant's petition

OIG findim!: Not Supportable. We found that the Office of Petitions followed PTO
procedures. After reviewing the examiner's restriction and the technology center
director's decision, the Office of Petitions determined that a restriction of claims was
necessary and the director's decision not to withdraw the restriction was proper. Overall,
the complainant has had PTO personnel review the examiner's original restriction six
times (see table 4 on page 10). Based on these six reviews, the restriction requirement
has been deemed proper. The complainant filed a seventh petition on September 13,
2002, for reconsideration by the Office of Petitions.

   Table 5. Events Leadin!! Uo to the Comolainant's                Se
                                                                                     -


                                                                                  'Response
                                                                                     ,~
                                                                                            -   "_-r=   -"""




                                                                                = frqmjPJ'Q
                                                               Restrict to one       Not
       Restriction       1       Examiner        4/14/2000
                                                                 invention        Applicable
                                                               Restrict to type      Not
       Restriction2              Examiner        6/20/2000
                                                                of invention      Applicable
         Petition               Technology       7/l 7/2000         Denied4               10/26/2000
                              Center Director
       Examiner's
       First Office                                                Non-final                Not
                                 Examiner        9/25/2000
        Action on                                                  rejection              Applicable
        the Merits
                                 Office of
                                                 12/18/2000        Granted4                3/6/2001
                                 Petitions3
         Petition
                                Technology        3/6/2001          Denied4               8/28/20016
                              Center Director5
         Petition    7
                                Technology       8/22/2001          Denied4               8/28/2001
                              Center Director
                                 Office of
         Petition                                9/27/2001        Dismissed4              7/18/2002
                             . Petitions3
   1A restriction requires the applicant to limit the number of claims to those pertaining to one
       invention.
  2 The examiner made his final restriction to the applicant's claims.
  3 The Commissioner for Patents referred the petition to the technology center director.
  4 Granted- request is approved, Denied- final unfavorable decision, Dismissed- unfavorable
       intermediate decision primarily due to a fundamental defect (e.g., no fee provided).
  5 The Office of Petitions granted the petition on March 6, 2001, and returned the file to the
       technology center director for reconsideration of the examiner's restriction and the technology
       center director's October 26, 2000 petition decision.
  6 The August 28, 2001 decision responds to the December 18, 2000 and August 22, 2001 petitions.
   7   The complainantrequested that PTO review the December 18, 2000petition.

Source: PTO PALM data


                                                      13
u.s. Department of Commerce                                                Final Report IPE-16083
Office of InsDector General                                                        SeDtember 2003


Discussion: PTO's Office ofPetitions9 dismissed the complainant's September 27,2001
petition based on prior decisions made by an examiner and technology center director. In
our review, we assessed whether the Office of Petitions followed documented procedures
in dismissing the complainant's petition, and not whether the decisions made by the
Office of Petitions, technology center director, and examiner were correct. The
complainant alleged that the Office of Petitions should have overturned the technology
center director's decision rather than dismissing his petition, thereby violating PTO's
procedures.

Specifically, the complainant contended that the examiner's explanation for restricting
claims in the application was fmal and not subject to change. When the technology
center director affirmed the examiner's restriction but changed the basis for it, the
complainant believed the technology center director should have withdrawn the
examiner's original restriction requirement. The complainant alleged the technology
center director violated PTO procedures by changing the reasons for the restriction
requirement in his subsequent decision. As a result, the complainant believed the Office
of Petitions wrongfully dismissed his petition by not overturning the technology center
director's decision.

MPEP 1002.02 allows technology center directors to review an examiner's final
restriction decision when an applicant submits a petition to reconsider the examiner's
decision. PTO guidelines do not specify that if the final restriction requirement is
revised, the finality of the examiner's decision should be withdrawn. In such instances,
the prosecution of the application continues, including multiple non-fmal rejections, until
it concludes with the granting, denying, or abandoning of the application. Therefore, the
complainant's assertion that the Office of Petitions action was inappropriate in light of the
technology center director's decision, and thereby violated PTO procedures, is not
supported.




9 The Manual of Patent Examining Procedure (section 1002.02) allows the Office of Petitions to review

restrictions made by examiners.


                                                   14
u.s. Department of Commerce                                     J7inal Report IPE-16083
Office of Inspector General                                              September 2003


v. Issue 5: PTO technology center director and other personnel had inappropriate
            access to PALM and were able to manipulate datesfor personal gain

OIG finding: Not supportable. We found the technology center director and other
personnel referred to by the complainant had appropriate authorized access to PALM.

Discussion: The complainant alleged that          PALM TROUBLESHOOTERS
a technology center director and other
personnel had inappropriate access to the
PALM system and were able to                 PTO has authorized 191 employees as
manipulate dates for personal gain. Based    troubleshooters for 3,538 patent
on our conversations with the                examiners. These employees are
complainant, it appears that he incorrectly  authorized to enter, modify, or delete
believed that directors and supervisors did  PALM    data, and they include 5
not have access to the PALM system.          technology center directors, 69
Specifically, he believed that only clerks   supervisory patent examiners, 4 patent
had such access to PALM. The                 corps  executives, 62 legal instrument
complainant challenged the access rights     examiners, 30 legal instrument examiner
of other PTO personnel. We found that        supervisors, and 21 other individuals in
PTO has designated 191 PALM                  support offices.
troubleshooters with access to PALM
because it is PTO's primary production system containing very sensitive and
economically important data to supervisors and technology center directors. (See box.)

Finally, the complainant also charged that one director-who had designed PALM and
has since left PTO-could access the system remotely and alter or review application
data because he had recreated the PALM system outside PTO. After speaking to PTO
personnel, we confirmed that the technology center director's system access was revoked
the day he left PTO. Therefore, even if the former technology center director had created
his own PALM system, it does not appear that he could access PTO' s PALM system
without system privileges.




                                            15
    u.s. Department of Commerce                                                    Final Report IPE-16083
    Office of Insoector General                                                            Seotember 2003


I   VI. Issue 6: PTOjemporarily           lost applications 09/253,506 and 09/940,607

    DIG findin2: Supportable. According to PTO's PALM system, PTO did lose both of the
    complainant's application folders for three months in total (see table 6).

    Discussion: PTO handles hundreds of thousands of folders each year and reportedly
    loses very few, so the loss of two applications submitted by the same individual is
    troublesome. But not only were both of the complainant's folders lost, they were lost
    within 18 days of each other. We found that according to PTO records, lost folders are a
    rare occurrence. For example, year-to-dateIOdata for fiscal year 2003 indicate that only
    2,837 folders out of approximately 1 million pending applications-or less than .03
    percent-have been identified as lost.

Table 6: Lost and Found Data for Complainant's                    Applications
         >   A ...>litati9Il        Qri:ihalfllin
             09/253,506                  02/22/1999                    1/27/03                    2/27/03
             09/940,607                  08/29/2001                    2/13/03                    4/18/03
     Source: PTO PALM data

    PTO management gave several general explanations for how folders are lost, including
    the facts that contractors or examiners may misplace folders while transporting them to or
    from storage; PTO personnel may not record the correct location of a folder; or one
    examiner or supervisor may borrow the folder from another and not record its
    whereabouts in PALM. We could not specifically determine how the folder for
    application 09/253,506 was lost. However, PALM records indicate a petition was entered
    in the Office of Petitions on September 16, 2002, as that is the last entry prior to the
    folder being marked lost on January 27,2003. PTO personnel believe the loss may have
    occurred as the folder moved among multiple offices. Specifically, the examiner, the
    technology center director, and the Office of Petitions had to process a large amount of
    documents the complainant had submitted. 11

    PTO personnel stated that the folder for application 09/940,607 was probably lost when
    the application was submitted on August 29,2001, or after PTO technical support staff
    entered three information disclosure statements 12into the file. The loss does not appear
    to have been discovered prior to February 13, 2003-when someone at PTO tried to find
    the folder. No official examiner action occurred prior to the application being marked
    lost.

    While we could not determine how the folder for application 09/940,607 was lost, we
    verified that the application was first assigned to an examiner on January 29,2002. Prior

    10Year to date includes October 2002 through May 2003.
    11See table 4.
    12Information disclosure statements are submitted by an applicant and disclose all patents, publications,
    applications, or other information known to that individual to be material to patentability.


                                                          16
                                                                  ---   -   - --   -   --   ~ -- ~ -- ~--




u.s. Department of Commerce                                     Final Report IPE-16083
Office of InSDectorGeneral                                              Sell/ember 2003


to this date, PTO received three information disclosure statements pertaining to this
application-dated August 29,2001, November 20, 2001, and December 27,2001-
requiring entry of all three statements into the file after the case was assigned to the
examiner. Sometime between January 29,2002, and August 19,2002, when the case was
re-assigned to an examiner, these information disclosure statements were entered into
PALM. This was the last activity recorded before the file was marked lost. Therefore,
the file was probably lost between January 29, 2002, when the original examiner was
assigned and entered the information disclosure statements and the actual date the file
was marked lost, February 13,2003. We could not determine why the file was marked
lost because PALM does not record such reasons.

PTO plans to replace paper applications with electronic files to eliminate the potential
loss of folders. PTO is currently pilot testing a system called e-Phoenix, which the
European Patent Office developed to provide examiners with online access and thus
reduce application-processing time and loss of paper files. PTO plans to have the system
implemented PTO-wide by 2004.




                                           17
u.s. Department of Commerce                                                                 Final Report IPE-16083
Office of Insoector General                                                                         Seotember 2003




           ~
           il  '*
               ,
                         UNlTED
                         .




                       * 1RADEMARK
                                      STATES

                         PATENTANDOFfICE

                                                                                              ~forPatenls
                                                                                                Washington. DC 20231
                                                                                                       WWW'.usDto.aov
                   . SEP 29 am


               MEMORANDUM          FOR:       JillGross              .

                                              Assistant Inspector General for Inspections and
                                              Program Evaluations


               FROM:
                                             ~~~~
                                             NicboIasP. Godici
                                              Commissionerfor Patents


           .   SUBJECI':                      Response to Draft InspectiOn Report No. IPE-l6083


               ~    Patent Business area appreciates the eftOrt your inspection staffbas made in
               evaluating the handling of patent appJication serial I1UII1beIs09/253.506 and 091940.607.
               We have carefiilly considc:rcd the four recommendations made in the subject draft report
               for iInproving the clarity ofinst:mctions to applicants regarding the status letter       .
               processing and more clearly defiDing timeliness goals for petitions. We acknowledge the
               concerns raised and believe that the goal ofthc recommendations either have already
               been met by recently implemented autoMated systems or the USPTO is taking means to
               comply with the reromD:tf'!Md"tions.


               IG Recommendation      (1): Clarify the definition of definition of "promptly" for patent
               corps responses to applicant status inquiries.

               USPTO Response:

               We agree that a prompt response to patent application status inquiries is important. The,


               Office received approximately 40.000 status inquiries annually. In order to provide
               improved customer service in this area; the USPTO has recently implementc:d a new
               automated system by which responSes are provided to status lettec inquiries. When such
               inquiries arc.received in the Office the Technology Center Customer Service Center
               representative enters the application serial number into an automated system and an
               approximate date for action is provided. The Customer Service Center representative
               then either calls the applicant with the status information or prints a letter containing the
               status information and mails it to the applicant for their records. Wrtb this automated
               system a rcspoDSCcan be provided simply and quickly after the initial inquiry by the
               applicant.                                           .      .




                                                              18
          - ~ ~~~m-   -------­




u.s. Department of Commerce                                                               J<inalReport IPE-16083
Office of Inspector General                                                                       September 2003




                                                                                                          2


             It is believed that the Office has accomplished the objective that bas been recommended
             by the inspection rc;port.                           .



             IG Recommendation (Z): Infonn. applicants if the USPTO responds to more than OII.C
             status inquiry in the same letter.

             USPfO               ResuoDse:

             We agree that the applicant should have an understanding ofwhicb inquiry the Office
             letter is responsive to. The new automated status letter respot!Se syStem. provides a
             separate response to each inquiIy received by the Technology Centers. Since the Office
             response is conveyed by either telephone. or in writing to each status 1nquiIy, the short
             tum around time ensures that the applicant is aware of which status inquiry the Office is
             responding to.


             IG Recommendation        (3): Clearly infonn applicants when to submit status inquiries
             pertaining to their applications.

              USPTO Respoase:

              ';['hePatent JJusincss area agrees with this recommendation and recognizes the need to
              clearly infonn applicants of when to file status requests. The USPTO CUII'CI11ly
              accomplisheS this in two ways. The wcck1y Official Gazette includes the average filing
              date of applications receiving a first Office action in each Technology Center (TC) aloqg
              with the phone number for each of the Custoiner Service Centers. Thus. if applicant has
              an application older than the published date. a status 1nquiIy would be recommended.
              Additionally, the Manual of Patent Bxamining 'Proced'UrC(MPEP), section 203.08, sets
              forth guidance.for applicants as to when a status inquiry would be. proper.


              IG ReeommeDdation (4): Establish clear timeliness goals for the Patent CoIps handling
              ~ and responseS to, applicant's petitions.

              USPTO ResPonse:

              We agree with the ~P.nfI:mon and are taJdngsteps to ensure guidelines for these
              response8." /!oSnoted in the draft inspection report. the Office of Petitions cum:nt1y bas a
              response tiIne goal. The Technology Center directors generally IeSpODdto petitions
              within one to two months from their receipt of the patent application in the TC. Some of
              the delay in iespondmg to the applicant in subject application O9/2S3,506 was caused by
              locating and matching papers to the application file. Additional delays were caused. as
              noted in the draft inspection report. by one office needing access to the file while another
              office was woIking on the file at the Same time. The electronic Image File Wrapper
              (1FW) system that is cum:ntly being deployed throughout the cotpS will ~able multiple
              USPTO employees to concum:nt1y view the application from their individual desktops.
              As deployment of the 1FW system. continues to expand fewer applications will be




                                                            19
           mU--       n-_U   U--_U-   U   on   -----­




u.s. Department of Commerce                                                                  Final Report IPE-16083
Office of Insoector General                                                                               Seotember 2003




                                                                                                             3


              processed in their cmrent papa form. and therefore locating the paper file will not be It
              cause for delay in responding to a petition.


                  Observation l'e2ardinl!: P82e 7 oCtile report: On page 7 of the draft report states, M... it
                  is rare fur applicants to submit petitions relating to examiner restrict,ions." It should be
                  noted that while it is not typicaJ for applicants to petition an examiners holding of a
                  restriction, this is not a "rare" 0CCUITeDCC.The-duplicate entry was caused by tecbnicaJ
                  support error in entering a duplicate paper.




                                                              20
